DOE F 1325.8
(08-93)

United States Government                                                             Department of Energy


Memorandum
        DATE:    June 8, 2010                                         Audit Report Number: OAS- L-10-05
    REPLY TO
    ATTN OF:     IG-32 (A09AL001)
     SUBJECT:    Report on "The National Nuclear Security Administration's Site Office Training and Staffing"
           TO:   Director, Office of Human Capital Management Programs, NA-64

                 INTRODUCTION AND OBJECTIVE

                 The National Nuclear Security Administration's (NNSA), a semi-autonomous agency
                 within the Department of Energy (Department), mission includes maintaining and
                 enhancing the safety, reliability, and performance of the nuclear weapons stockpile. To
                 meet its mission, NNSA uses Federally-run site offices to oversee the management and
                 operating contractors that operate each of NNSA's eight nuclear weapons research and
                 production sites. The site offices provide the necessary communication between Federal
                 and contractor employees and oversight to improve management procedures. In September
                 2009, the Department's statement on management reform emphasized that Site Office
                 Managers were to act on behalf of mission organizations for day-to-day decision making on
                 operational matters.

                 As recognized by NNSA leadership, people are the most important resource for meeting
                 critical mission objectives including maintaining the stockpile and performing
                 nonproliferation and nuclear counterterrorism work. Because of the challenges and
                 importance of maintaining well-qualified and adequately staffed site offices, we initiated
                 this audit to determine whether NNSA had adequately defined training requirements for its
                 technical staff and had developed plans to address staffing needs.

                 CONCLUSIONS AND OBSERVATIONS

                 NNSA had not always ensured that staff training requirements were defined nor had it fully
                 planned to meet staffing needs. Specifically:

                     •   NNSA had not determined the continuing education training requirements for site
                         office personnel who provide assistance, guidance, direction, oversight, or
                         evaluation of contractor activities that could affect the safe operation of defense
                         nuclear facilities; and,

                     •   Site offices had not always prepared succession plans to ensure the effective
                         transfer of knowledge that will be necessary if NNSA is to successfully address
                         potential retirement losses.
                             Continuing Education Training

Although Department standards require personnel who possess Technical Qualification
Program (TQP) qualifications to meet a continuing education requirement, these
standards had not defined the specific level of training needed to satisfy TQP's
continuing education requirement. TQP qualifications are required for individuals
assigned line management, technical support, operation, or oversight responsibilities that
provide assistance, guidance, direction, oversight, or evaluation of contractor activities
that could affect the safe operation of defense nuclear facilities. NNSA is responsible
for establishing the specific requirements for NNSA personnel, however, we noted that
it had not defined the number of continuing education hours, courses, or any other
measurement regarding training required to maintain technical qualifications.

A senior NNSA official told us that there has not been an emphasis on establishing
continuing education requirements because the definition of required training would
limit the personnel since they would be focused on the required training and not on other
available training. In addition, depending on the discipline, provided training would be
rapidly outdated since the Department's orders and regulations change frequently. We
noted, however, that non-TQP professional disciplines such as Federal Project Directors
that have a continuing education requirement specify, at a minimum, the number of
training hours required in a given period of time to meet the requirement. Additionally,
the frequency of changes to Department orders and regulations, we concluded, is also a
reason for establishing specific continuing education requirements to ensure that
personnel remain current in their understanding of requirements.

In November 2009, the Department updated Department Order 426.1 pertaining to the
technical qualifications to state that at a minimum, the Functional Area Qualification
Standards for the employees in the TQP must address applicable continuing education
and/or proficiency requirements. In addition, NNSA established a continuing training
user's guide that sites may adopt to aid in the design, development, and evaluation of a
continuing training program. However, neither the Functional Area Qualification
Standards nor the NNSA user guide contained requirements for the establishment of a
minimum number of continuing training hours.

                                  Succession Planning

Site offices had not always adequately planned for their future staffing needs. The head
of each agency is required, by the Federal Workforce Flexibilities Act of 2004, to
establish a comprehensive succession program. According to the Office of Personnel
Management, succession plans are important to ensure the effective transfer of
knowledge that will be necessary to address future staff retirements. In addition,
NNSA's Office of Human Capital Management stated that site office managers were
instructed, during Fiscal Years (FY) 2009 and 2010, to ensure that succession plans
were in place and supported by the staff's Individual Development Plans for training.
Los Alamos, Sandia, and Y-12 Site Office's personnel told us, however, that they either
had not prepared plans or that their plans lacked sufficient detail. The Kansas City Site


                                    2
Office had a draft succession plan but it had not been approved or finalized as of May
2010.

Site office officials indicated that they have not prepared succession plans for a variety
of reasons, including low attrition rates and hiring freezes that have prevented them from
carrying out any plans if they were developed. While we accept these arguments as they
relate to current staffing needs, the preparation of succession plans is likely to be
important given the near term potential for a significant number of retirements. We
found, for example, that 66 (34 percent) of the 192 personnel on board as of April 2009
at the Sandia and Los Alamos Site Offices were eligible for retirement by the end of FY
2014.

Finally, we noted that NNSA had not completed a baseline staffing study since 2003,
when the NNSA site offices were established. Based on planned increases in mission
activities, we concluded that such a study could help NNSA ensure that site office
staffing levels are sufficient to meet future mission needs. Notably, NNSA's FY 2011
budget requests a significant increase in budget authority to modernize the nuclear
weapons infrastructure and to expand and accelerate nonproliferation activities –
activities that could possibly require additional site office staff.

SUGGESTED ACTIONS

Because of the importance of NNSA Site Office oversight responsibilities, we suggest
that the Director of NNSA's Office of Human Capital Management:

    1. Ensure that continuing education training requirements are defined for the TQP
       qualifications;

    2. Ensure that comprehensive succession plans are developed for each NNSA site
       office; and,

    3. Determine whether NNSA site offices are sufficiently staffed to meet future
       mission needs.

Since no formal recommendations are being made, no response to this report is required.
We appreciate the cooperation of your staff during the conduct of this review.




                                            David Sedillo, Director
                                            NNSA and Science Audits Division
                                            Office of Inspector General

Attachment


                                    3
cc: Director, Policy and Internal Controls Management, NA-66
    Director, Office of Risk Management, CF-80
    Team Leader, Office of Risk Management, CF-80
    Audit Resolution Specialist, Office of Risk Management, CF-80




                                 4
                                                                                    Attachment
SCOPE AND METHODOLOGY

We performed the audit between December 2008 and February 2010. We conducted work at the
National Nuclear Security Administration (NNSA) Service Center and Sandia Site Office in
Albuquerque, New Mexico (NM); the Los Alamos Site Office in Los Alamos, NM; and, NNSA
Headquarters in Washington, D.C.

To accomplish the audit objective, we reviewed and evaluated documentation related to NNSA
staffing, training, and qualifications as well as interviewed NNSA personnel responsible for
these areas.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. The audit included tests of internal controls and compliance with
laws and regulations to the extent necessary to satisfy the audit objective. Because our review
was limited, it would not necessarily have disclosed all internal control deficiencies that may
have existed at the time of our audit. We also assessed performance measures in accordance
with the Government Performance and Results Act of 1993 relevant to NNSA site office staffing,
training, and qualifications. We found that NNSA had not established measures specific to this
area. We did not rely on computer-processed data to satisfy our audit objective.

Management waived an exit conference on May 14, 2010.




                                               5
                                                                    IG Report No. OAS -L-10-05

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
